 

In The

Supreme Court of the United States

RANDY HENRY,
Petitioner,
v.
J. BRET JOHNSON, e¢ al.

Respondents

 

On Petition for A Writ of Certiorari
To The United States Court of Appeals
For The Eighth Circuit

 

CERTIFICATE OF SERVICE
ERIC SCHNAPPER J.C. PLEBAN
Counsel of Record C. JOHN PLEBAN
University of Washington Pleban and Petruska Law, LLC
School of Law 2010 Big Bend
Box 353020 St. Louis, MO 63117

Seattle, WA 98195
(206) 660-8845
schnapp@uw.edu

(314) 645-6666
JC@Plebanlaw.com
Counsel for Petitioner
I, J.C. Pleban, counsel for Petitioner Randy Henry, hereby certify that on this
Ath day of September 2020 I served the Petition for Writ of Certiorari, Appendix and
Proof of Word Count on counsel of record for Respondent:

D. John Sauer, Julie Blake, Christopher Wray
Missouri Attorney General’s Office
207 West High Street
Jefferson City, MO 65101

Deborah Yates
Missouri Attorney General’s Office
815 Olive Street, Suite 200
St. Louis, MO 63101

All parties required to be served have been served. I am member of the Bar of
this Court.

J.C. PLEBAN, Mo. Bar No. 63166

C. JOHN PLEBAN
Pleban and Petruska Law, LLC
2010 Big Bend
St. Louis, MO 63117
(314) 645-6666
JC@Plebanlaw.com

Counsel for Petitioner
